<html>
<title> - NOMINATIONS OF SHANA LEIGH DALE TO BE DEPUTY ADMINISTRATOR OF NASA; KATHRYN O'LEARY HIGGINS AND MARK V. ROSENKER TO BE MEMBERS OF THE NATIONAL TRANSPORTATION SAFETY BOARD</title>
<body><pre>[Senate Hearing 109-309]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-309
 
  NOMINATIONS OF SHANA LEIGH DALE TO BE DEPUTY ADMINISTRATOR OF NASA; 
   KATHRYN O'LEARY HIGGINS AND MARK V. ROSENKER TO BE MEMBERS OF THE 
                               NATIONAL 
                      TRANSPORTATION SAFETY BOARD

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 1, 2005

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




                    U.S. GOVERNMENT PRINTING OFFICE
26-233                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                     TED STEVENS, Alaska, Chairman
JOHN McCAIN, Arizona                 DANIEL K. INOUYE, Hawaii, Co-
CONRAD BURNS, Montana                    Chairman
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
JIM DeMint, South Carolina           FRANK R. LAUTENBERG, New Jersey
DAVID VITTER, Louisiana              E. BENJAMIN NELSON, Nebraska
                                     MARK PRYOR, Arkansas
             Lisa J. Sutherland, Republican Staff Director
        Christine Drager Kurth, Republican Deputy Staff Director
                David Russell, Republican Chief Counsel
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
   Samuel E. Whitehorn, Democratic Deputy Staff Director and General 
                                Counsel
             Lila Harper Helms, Democratic Policy Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on November 1, 2005.................................     1
Statement of Senator Allen.......................................     5
Statement of Senator Inouye......................................     2
    Prepared statement...........................................     2
    Letters from Hon. Barbara A. Mikulski and Hon. Hillary Rodham 

      Clinton, supporting Kathryn O'Leary Higgins................   4,5
Statement of Senator Pryor.......................................    27
Statement of Senator Stevens.....................................     1

                               Witnesses

Dale, Shana Leigh, Nominee to be Deputy Administrator of NASA....    19
    Prepared statement...........................................    20
    Biographical information.....................................    22
Levin, Hon. Sander M., U.S. Representative from Michigan.........     4
Higgins, Kathryn O'Leary, Nominee to be a Member of the National 
  Transportation Safety Board....................................     7
    Prepared statement...........................................     8
    Biographical information.....................................     9
Rosenker, Mark V., Nominee to be a Member of the National 
  Transportation Safety Board....................................    12
    Prepared statement...........................................    13
    Biographical information.....................................    14
Sarbanes, Hon. Paul S., U.S. Senator from Maryland...............     3

                                Appendix

Nelson, Hon. Bill, U.S. Senator from Florida, prepared statement.    31
Hall, Hon. Ralph M., U.S. Representative from Texas, prepared 
  statement......................................................    31


  NOMINATIONS OF SHANA LEIGH DALE TO BE DEPUTY ADMINISTRATOR OF NASA; 
   KATHRYN O'LEARY HIGGINS AND MARK V. ROSENKER TO BE MEMBERS OF THE 
                  NATIONAL TRANSPORTATION SAFETY BOARD

                              ----------                              


                       TUESDAY, NOVEMBER 1, 2005

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:05 a.m. in 
room SD-562, Dirksen Senate Office Building, Hon. Ted Stevens, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Our apologies. It seems the two of us got 
lost trying to find this room.
    [Laughter.]
    The Chairman. This morning the Committee will hear from 
nominees for positions at the National Aeronautics and Space 
Administration and the National Transportation Safety Board.
    For decades, our Nation's space program has focused on 
Space Shuttle operations. Recently the President gave us a new 
Vision for Space Exploration which will take our country back 
to the moon and eventually to Mars. Fulfilling this vision will 
pose many technological and budgetary challenges. The team 
which Dr. Griffin is assembling will take our first steps 
toward attempting to achieve this vision.
    Ms. Dale, Dr. Griffin and I have spoken about your 
nomination. I look forward to hearing from you. Specifically, I 
am interested in how you see yourself fitting in to the NASA 
hierarchy and what you think will be some of the major 
contributions you may make to that agency.
    Since 1967, the National Transportation Safety Board has 
investigated all civil aviation accidents and major accidents 
in other transportation modes. It also consults with 
investigators in other countries on major transportation 
accidents outside the United States. The NTSB employs more than 
400 people at various locations. It has headquarters in 
Washington, D.C., 10 regional offices throughout the country, 
and a training academy near Leesburg.
    The Department of Transportation's Inspector General has 
oversight responsibilities over the NTSB. In 2004, the IG 
identified information security as a material weakness at the 
agency and made a number of recommendations.
    Last month, the IG completed a second audit. The IG found 
that beyond hiring a Chief Information Officer, the agency had 
made little progress toward increasing its information 
security. IG investigators were able to crack the Internet 
passwords that control access to the NTSB network. Further, 
investigators were able to access sensitive information, 
including real-time conversations between pilots and 
controllers during an accident. This is far from an acceptable 
level of security, and we look forward to hearing the nominee's 
views on this issue.
    Mark Rosenker is currently the acting Chairman of the 
National Transportation Safety Board. He is also Vice Chairman, 
a position nominated by the President but not requiring Senate 
confirmation. He is before the Committee today for his 
renomination as an NTSB member for a 5-year term. He has been 
nominated to a Republican seat.
    Kitty Higgins is a former Senate staffer who went on to 
work in the Clinton Administration and at the National Trust 
for Historic Preservation.
    We look forward to having both of you before the Committee 
today.
    I will turn to Senator Inouye for comments before we turn 
to our colleagues.

              STATEMENT OF HON. DANIEL K. INOUYE, 
                    U.S. SENATOR FROM HAWAII

    Senator Inouye. Thank you very much, Mr. Chairman.
    Sensing all the nominees are eager to get to work, I ask 
that my statement be made part of the record.
    [The prepared statement of Senator Inouye follows:]

 Prepared Statement of Hon. Daniel K. Inouye, U.S. Senator from Hawaii
    For nearly 40 years, the NTSB's dogged investigations of 
transportation accidents have improved the safety of America's 
transportation system, and its work, though often unnoticed, has helped 
millions of travelers arrive safely at their destinations every day. 
The NTSB and its staff are widely recognized for their unparalleled 
attention to detail and impartiality.
    For the NTSB to be effective, its Members must be above politics. 
Congress depends on the Board to work cooperatively and to build upon 
its proven track record. The Board must continue to improve 
transportation safety based on both the evidence that it receives and 
the tireless work of its dedicated experts.
    We look forward to learning more about Mr. Rosenker and Ms. 
Higgins, their qualifications, their thoughts on the NTSB's future, and 
the role they will play.
    We also have with us, Ms. Shana Dale, who has been nominated to be 
Deputy Administrator at the National Aeronautics and Space 
Administration (NASA). The Committee has great confidence in 
Administrator Michael Griffin, and he has made it clear that he wants 
you at NASA as soon as possible.
    You will be entering NASA at a challenging time. The agency is 
trying to keep flying and live up to its current commitments while 
building a new vehicle and beginning a new program of lunar 
exploration. Managing the transition from the current program to NASA's 
future will require the agency to make smart choices about using 
resources and technology.
    When resources get tight, I hope that you will not cut to the bone, 
particularly in science, education, and aeronautics.

    The Chairman. I am sorry to have delayed our colleagues.
    We should turn to Senator Sarbanes to introduce the person 
he wishes to speak about.

              STATEMENT OF HON. PAUL S. SARBANES, 
                   U.S. SENATOR FROM MARYLAND

    Senator Sarbanes. Well, thank you very much, Chairman 
Stevens and Senator Inouye. I am very pleased to be before the 
Committee.
    You have got a terrific nominee here before the Committee 
this morning in Kitty Higgins. I have known Kitty a long time. 
She is a resident of Annapolis in my state. We are very proud 
to have her as a resident.
    The Members of this Committee, of course, know well the 
very significant work of the National Transportation Safety 
Board. It is really critical to the safety and the well-being 
of the American traveling public. They provide independent 
federal oversight for all civil aviation accidents in the U.S., 
as well as investigatory responsibility for significant 
tragedies on our waterways, railroads, and highways. So it is 
very significant work.
    Kitty Higgins brings very significant qualifications for 
this position. Out of the University of Nebraska, she worked in 
the Department of Labor. She then was on the White House 
Domestic Policy Council during the Carter Administration as 
Assistant Director for Employment Policy. She then went to work 
on Capitol Hill, including 4 years as the minority staff 
director on the Labor and Human Resources Committee, and then 
went over to the House side and served as Chief of Staff for 7 
years for Congressman Sandy Levin who, Mr. Chairman, is here 
with us this morning. You may want to have a reference from him 
as well.
    She joined the Clinton Administration in 1993 as Chief of 
Staff to the Secretary of Labor. She left the Labor Department 
in 1995, became Assistant to the President and Secretary to the 
Cabinet. As Cabinet Secretary, she was the key administrative 
official in the coordination of the response to a number of 
important natural and national disasters, including the ValuJet 
and the TWA flight 800 crashes. So she has dealt extensively in 
that position with the National Transportation Safety Board and 
the Federal Aviation Administration and knows intimately their 
work.
    In March 1997, she was nominated to be Deputy Secretary of 
Labor, unanimously confirmed by the Senate in that post. So she 
was at the Labor Department as the Chief Operating Officer of 
the Department beginning in 1997.
    She has also served as Vice Chair of the Presidential 
Council on the U.S. Coast Guard Roles and Missions, and when 
she left the Federal Government, she was at the National Trust 
for Historic Preservation for 5 years.
    She is an enormously accomplished, skilled, knowledgeable, 
and effective government servant. She has carried out very 
significant responsibilities in her various positions over the 
course of her career. And I have every confidence she will do 
an absolutely outstanding job as a member of the National 
Transportation Safety Board, and I commend her very strongly to 
the Committee.
    The Chairman. A very substantial recommendation, Senator.
    Congressman Levin, did you wish to have a comment at this 
time?

              STATEMENT OF HON. SANDER M. LEVIN, 
               U.S. REPRESENTATIVE FROM MICHIGAN

    Mr. Levin. Senators, I appreciate the chance to say just a 
few words.
    I came over here basically to sit and kind of revel in this 
nomination. There is no one I have met who has more integrity, 
who has more public interest. She has, I think, unusual 
experience in both the executive and the legislative branches 
of our government.
    She also, from her early years, as I have been told--and I 
saw it firsthand when she worked in the House--has a deep 
sensitivity to the public and for the individual's interest. 
That really is what safety is all about, its impact on us as 
individuals. She has also had experience through her work with 
the White House in matters relating to safety.
    So I just wanted to come here and join Senator Sarbanes in 
saying to you that I think this is a superb nomination, and 
Kitty Higgins, as she has always done in the past, will 
completely live up to the trust, in this case, of the U.S. 
Senate.
    Thank you so much, Senator.
    The Chairman. Well, Sandy, it is nice to have you over here 
to see where your brother lives.
    [Laughter.]
    Mr. Levin. I have heard rumors.
    The Chairman. Senator Inouye.
    Senator Inouye. Thank you, Mr. Chairman.
    I have two letters, one from Senator Barbara Mikulski, the 
other from Senator Hillary Rodham Clinton, supporting Kathryn 
O'Leary Higgins for this position.
    The Chairman. They will be placed in the record, without 
objection.
    [The letters of Senator Mikulski and Senator Clinton 
follow:]

                  Barbara A. Mikulski, United States Senate
                                   Washington, DC, November 1, 2005
Hon. Daniel K. Inouye,
Ranking Member,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Senator Inouye:

    I am writing to support Kathryn O'Leary Higgins' appointment to the 
National Transportation Safety Board (NTSB).
    The mission of the NTSB is to investigate every civil aviation 
accident in the United States--as well as significant accidents in 
other modes of transportation. The NTSB is also charged with issuing 
safety recommendations to prevent future accidents. Kitty Higgins' 
extraordinary experience and analytical abilities make her well suited 
for this critical position.
    Ms. Higgins has a wide range of experience in both the Executive 
and the Legislative branches of government. As President Clinton's 
Cabinet Secretary, she worked closely with the NTSB and the Department 
of Transportation. As liaison to both agencies, she worked with the FAA 
on safety inspector staffing and surveillance--which are both critical 
components of aviation accident investigations. She also worked with 
the FAA and Congress to increase inspector staffing in the aftermath of 
the ValuJet and TWA 800 accidents. She played a key role in 
coordinating the federal agencies that investigated the accidents. In 
addition, she worked to improve communication and assistance to 
families of the victims.
    Ms. Higgins has also worked closely with the U.S. Coast Guard. She 
co-chaired the Coast Guard Roles and Missions Commission. Currently, 
she serves as a member of the Navigation Council for the Coast Guard's 
Deep Water Procurement Project.
    Kitty Higgins has had a remarkable career in government service. As 
a Member of the National Transportation Safety Board, she would 
continue her work to improve the safety of our nation's transportation 
systems. I enthusiastically support her appointment.
        Sincerely,
                                       Barbara A. Mikulski,
                                                      U.S. Senator.
                                 ______
                                 
               Hillary Rodham Clinton, United States Senate
                                   Washington, DC, October 31, 2005
Hon. Daniel K. Inouye,
Ranking Member,
Senate Committee on Commerce, Science, and Transportation Committee,
Washington, DC.

Dear Dan:

    I write in strong support of the nomination of Kathryn ``Kitty'' 
Higgins to the National Transportation Safety Board.
    I have known Kitty Higgins for 12 years. She has over 30 years of 
experience in both the public and private sectors and served as 
Secretary to the President's Cabinet during the Clinton Administration. 
At that time, she worked closely with the NTSB on the 1996 ValuJet and 
TWA 800 accident investigations. She understands how important it is to 
protect the Board's independence while insuring that all the relevant 
federal, state and local agencies are consulted and participate. She 
worked closely with the Federal Aviation Administration on a number of 
issues including reform legislation enacted by the Committee. She also 
had the opportunity to work with the Coast Guard and served as Vice 
Chair of the Coast Guard Roles and Missions Commission that made 
recommendations to the President. Kitty currently serves as a Member of 
the Navigation Council for the Coast Guard's Deepwater Project. She 
also has a wealth of experience working on labor and employment issues 
which gives her a particular understanding of the needs of workers and 
the importance of technical and safety training.
    Kitty Higgins is eminently qualified to serve on the National 
Transportation and Safety Board. She has a strong record of bi-
partisanship, a wealth of experience with complex issues, and the 
ability to work with people of diverse views. In addition to her 
professional qualifications, she is one of the finest individuals I 
have known and devotes much of her time and energy to her church and 
many worthwhile causes. I urge you to confirm her nomination.
        Sincerely yours,
                                    Hillary Rodham Clinton,
                                                      U.S. Senator.

    The Chairman. We will turn to the introduction of the 
nominee Senator Allen supports.

                STATEMENT OF HON. GEORGE ALLEN, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Allen. Thank you, Mr. Chairman and Senator Inouye, 
Senator Pryor. Thank you for allowing me to introduce and 
present to the Committee----
    The Chairman. Pardon me. Did you have any comment, Senator 
Pryor?
    Senator Pryor. I do not. Thank you.
    The Chairman. Go ahead.
    Senator Allen. It sounds like Ms. Higgins, by the way, Mr. 
Chairman, has plenty of glowing accolades. Let me present Mr. 
Mark Rosenker, now a resident of Virginia, to the Committee.
    I also want to say to Ms. Dale, living a lot of places 
around the country, thank you also for choosing Virginia as 
your place of residence as well.
    Let me focus on Mr. Rosenker, though. He has impressive 
qualifications, and I know you have it as part of the record 
for this nomination. Since his confirmation more than 2\1/2\ 
and a half years ago, Mark Rosenker has demonstrated himself to 
be a qualified and energized member of this important federal 
agency.
    At this point I believe his wife Heather is right behind 
him. Heather, thank you for being here. I suspect during your 
comments, the Chairman will ask you to introduce your bride and 
any other colleagues or friends who are here who have come to 
support your nomination.
    During his tenure, Mr. Chairman, Mark has brought a wealth 
of management and advocacy experience to the board. With more 
than 36 years of active and reserve duty in the Air Force, 
having risen to the rank of major general, Mark's decorations 
include the Distinguished Service Medal, Legion of Merit and 
two Meritorious Service Medals, which is outstanding for 
somebody to be serving on the National Transportation Safety 
Board.
    I think because of his unique combination of private sector 
and military experience, President Bush appointed Mark to be 
Deputy Assistant to the President and Director of the White 
House Military Office. After serving for 2 years in that White 
House position, President Bush nominated Mark to serve in his 
current position at the NTSB. Since he was confirmed in March 
of 2003, President Bush has twice designated Mark to serve in 
the role of Vice Chairman, and since March of this year, Mark 
has been serving with distinction as Acting Chairman of the 
NTSB.
    During this time on the board, Mark has been a strong and 
outspoken advocate for transportation safety. For his 
leadership role and in a variety of ways, but particularly in 
recreational boating issues, the National Safe Boating Council 
presented their highest honor, the Confluence Award, to him. 
This is traditionally given to Members of Congress, and Mark 
Rosenker is one of the very few executive branch people to 
receive this award.
    The aviation industry also acknowledges his leadership role 
in the challenging issue of preventing runway incursions. He 
has been outspoken in attempting to get the FAA to require that 
all children under the age of 2 be secured in safety belts 
while flying. I think all the passengers would like that, and 
so long as they are loose enough that the kids can lay over, if 
they are asleep and quiet, that probably would be fine as well 
as a parent.
    Mark is now a resident of Virginia. He spent a good deal of 
his youth in Maryland. Senator Sarbanes should know all this. 
He has gotten all these awards from the University of Maryland. 
I am not going to hold that against him. I am still for him. He 
was honored to be their commencement speaker. He was presented 
with their 2001 Distinguished Centennial Graduate Award, which 
is quite an honor.
    Clearly, Mark Rosenker, Mr. Chairman and Members of the 
Committee, has demonstrated that he is capable and enthusiastic 
about the Board and its mission, and I respectfully urge my 
colleagues to swiftly support his reconfirmation.
    The Chairman. Thank you very much.
    Our other nominee before us today is Ms. Dale. We have a 
letter of support here for Ms. Shana Dale from Representative 
Ralph Hall, and I had several personal phone calls from the 
administrator saying why had you not been the subject of 
hearings. So tell Mike we got to it right after we got his 
call. OK?
    Any further comments, Senator?
    Very well. Let us turn first then to Ms. Higgins. Ms. 
Higgins, you obviously have the support of all of the Irish 
mafia around here today.
    [Laughter.]
    The Chairman. But tell us a little bit about what you see 
for yourself in terms of this assignment. What are your 
priorities?

STATEMENT OF KATHRYN O'LEARY HIGGINS, NOMINEE TO BE A MEMBER OF 
            THE NATIONAL TRANSPORTATION SAFETY BOARD

    Ms. Higgins. Thank you, Senator.
    May I just introduce my daughter-in-law, Kate Higgins, who 
is here, representing all the Higgins and O'Learys today? And 
my son Kevan is at our embassy in Port-au-Prince, Haiti and I 
think is watching via the webcast there.
    As Senator Sarbanes and Congressman Levin said, I worked on 
these issues first when I was at the White House about 10 years 
ago. I gained enormous respect for the NTSB, the work that they 
do, the mission of the agency, and the career staff there, and 
look forward to joining them, if I am confirmed by the Senate.
    Senator I would say in my experience with the Board and 
looking at some of the current issues, I think there are a 
number of things that are of concern. I think budget resources, 
staffing resources are an important issue. I think the IG 
report that has already been mentioned raises some very 
troubling issues, and I know that is of concern to the 
Committee. I know it is a focus of the Vice Chairman and will 
be, obviously, an important concern to those of us who hope to 
serve on the Board.
    There are some other areas that are of interest, for 
example, the nexus between safety and security. TWA 800 was a 
protracted investigation because it raised the issue of 
security. It proved to be an accident, but obviously security 
has come to the forefront in the last few years, and I am 
interested in making sure that the focus on safety for all 
modes of transportation is not being jeopardized by the 
increased focus on national security. Both are important 
priorities. We just have to make sure that safety continues to 
have priority, along with security.
    I think there is a concern that we all share about the 
number of recent accidents in foreign countries on foreign 
carriers. The Board gets involved in investigating those 
accidents. Our safety record in aviation here has been pretty 
good the last couple of years, but there are an increasing 
number of fatal accidents occurring abroad. I would like to 
know more about that. What are the implications for the safety 
of American travelers who fly on those carriers?
    I looked at the RAND Corporation report, which was issued a 
number of years ago. It made a number of very important 
recommendations, particularly in the aviation area, about the 
work of the Board, the needs of the staff. My understanding is 
that those recommendations really have not been addressed. I 
would hope, if confirmed, to go back to that report and begin 
to ask some questions about which of those recommendations 
should get more attention. The report looked into the future 
and said, aviation is getting much more complex. The resources 
at the Board have not increased proportionately. The technology 
is increasing. We need to make sure that there is the training 
and other kinds of things that the staff there need to get the 
job done.
    [The prepared statement and biographical information of Ms. 
Higgins follow:]

 Prepared Statement of Kathryn O'Leary Higgins, Nominee to be a Member 
              of the National Transportation Safety Board
    Mr. Chairman and Members of the Committee,
    I welcome the opportunity to appear before you to today as you 
consider my nomination to serve as a Member of the National 
Transportation Safety Board. I am honored to have been selected by 
Senator Reid and nominated by President Bush for this important 
position. If confirmed, I commit to you that I will dedicate myself to 
helping ensure that the NTSB meets its vital safety obligations to the 
traveling public.
    I believe my over 30 years of experience in the legislative and 
executive branches, as well as in the private sector, have provided me 
with the managerial, leadership and teamwork skills necessary to 
succeed in the position for which I have been nominated. Further, I 
believe my varied experience has given me a good perspective both on 
how organizations work and how to get things accomplished.
    During my tenure as Cabinet Secretary in the Clinton 
Administration, I had the chance to work firsthand both with the NTSB 
and the Federal Aviation Administration. Following the ValuJet accident 
in 1996, I was in continuous contact with key NTSB officials as they 
proceeded with the accident investigation and issued emergency 
recommendations to the FAA to address the problems they uncovered. 
Subsequently, the TWA 800 tragedy occurred and serious questions 
existed regarding whether it was a terrorist act, leading to intensive 
investigations by the FBI and the NTSB. I served as the focal point 
within the White House for tracking these investigative efforts. As 
such, for a period of months, I was in close contact with these 
agencies as the investigation proceeded, and made several on-site 
visits to the hangar in New York where the destroyed aircraft was being 
reconstructed as pieces were recovered. On one of these trips I 
accompanied President Clinton as he met with investigators and consoled 
family members. From this work, I was able to learn firsthand about the 
Board's investigative processes. I also developed a deep respect for 
the commitment and competence of the hard-working professionals at the 
NTSB.
    As Cabinet Secretary, I also had the opportunity to work closely 
with FAA officials on a variety of matters that gave me an appreciation 
for the types of aviation issues and challenges faced on an on-going 
basis by the FAA. For example, I was a primary White House contact for 
FAA and DOT executives as the 1996 FAA reauthorization and reform bill 
was being formulated by this Committee.
    I have also had the opportunity and privilege to work with the 
Coast Guard. At the request of Commandant James Loy, I served as Vice-
Chair of the Coast Guard Roles and Missions Commission. I currently 
serve as a Member of the Navigation Council for the Coast Guard's 
Deepwater Procurement Project. I believe this experience has given me a 
good sense of the work the Coast Guard does and would provide me with a 
good basis to work cooperatively with the agency on maritime 
investigations of mutual concern to the Coast Guard and the Board.
    Finally, my 30 years of work as an advocate and author of policies 
to help American workers gives me a special and important perspective 
for this post. I understand the importance of training workers to 
enhance technical skills, promote safety and prevent accidents. I 
pledge to pay particular attention to issues affecting workers if 
confirmed as a Member of the Board.
    If confirmed, I hope to contribute to maintaining--and even 
enhancing--the Board's status as the preeminent accident investigation 
body in the world. I believe this is an important priority. Although it 
is my sense that the Board does a very good job on a day-to-day basis 
in its investigative efforts, I am interested in learning if there are 
ways to expedite the process of completing accident reports and issuing 
recommendations to affected transportation modes. I also am hopeful 
there are means of working with other agencies to achieve the more 
timely adoption of recommendations. Although the vast majority of Board 
recommendations are adopted and implemented, it sometimes takes a 
protracted period before the recommended action items reach fruition. 
In my view, safety will be enhanced if thoughtful, balanced 
recommendations are issued, adopted and implemented on a timely basis. 
This is an area where I would plan to focus, if confirmed to serve on 
the NTSB.
    In closing, Mr. Chairman, I would reiterate my commitment to devote 
my efforts to working as hard as I can to benefit the safety of the 
traveling public if I am afforded the honor and opportunity of serving 
on the Board. I would be pleased to respond to any questions you or 
Members of the Committee may have at this time.
                                 ______
                                 
                      A. BIOGRAPHICAL INFORMATION

    1. Name (Include any former names or nicknames used):

        Kathryn O'Leary Higgins.
        Kitty Higgins.
        Kathryn O'Leary.
        Kitty O'Leary.

    2. Position to which nominated: Member, National Transportation 
Safety Board (Democratic Seat).
    3. Date of Nomination: 7/27/05.
    4. Address (List current place of residence and office addresses):

        Residence: information not released to the public.
        Office: None.

    5. Date and Place of Birth: 10/11/47, Sioux City Iowa.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse is deceased.
        Liam Higgins--31.
        Kevan Higgins--27.

    7. List all college and graduate degrees. Provide year and school 
attended.

        Mount Marty College 1965-1967 (no degree: transferred).
        University of Nebraska 1967-1969 (BS, Social Science and 
        Education).

    8. List all management-level jobs held and any non-managerial jobs 
that relate to the position for which you are nominated.

        President, TATC Consulting.
        Vice President for Public Policy, National Trust for Historic 
        Preservation.
        Deputy Secretary of Labor.
        Assistant to the President, and Cabinet Secretary.
        COS, Secretary of Labor.
        COS, Congressman Sander Levin.
        Democratic Staff Director, Senate Labor and Human Resources 
        Committee.

    9. List any advisory, consultative, honorary or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last five years.
    Member, Navigation Council, Coast Guard Deep Water Project.
    10. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational or other institution within the last five years.
    Board Member, University of Maryland School of Public Affairs.
    11. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age or handicap.

        Project Children/Washington Intern Program (1999 to present).
        Bridges to Peace Board (1999 to present).
        Video Action Board (2003 to present).
        Charles Carroll House of Annapolis, Vice Chair (1999 to 
        present).
        Historic London Town Board (2000 to present).
        International Cabinet of the Baltimore Basilica (2000 to 
        present).
        Ignatian Lay Volunteer Corps, Vice Chair (2001 to present).
        Sherwood Forest Club in Annapolis, Md.

    12. Have you ever been a candidate for public office? No.
    13. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years.
    My records only go back to 1999. I did not make campaign 
contributions of any size when I was with the government. Following is 
a list of contributions over $500 made since 1999:

        12/07/99 Sarbanes for Senate--$500.
        03/17/00 Clinton for Senate--$1000.
        04/10/00 Clinton for Senate--$1000.
        05/29/00 Townsend for Governor--$1000.
        09/19/00 Levin for Congress--$500.
        09/19/00 DSCC--$1000.
        10/18/00 O'Keefe and Williams for Gov/Lt. Gov--$500.
        04/03/01 Ira Shapiro for Congress--$500.
        05/25/01 Mary Landrieu for Senate--$1000.
        11/15/01 Reno for Governor--$500.
        12/02/01 Shaheen for Senate--$500.
        12/27/01 Abbott for Governor--$500.
        02/13/02 Reich for Governor--$500.
        06/20/02 Herseth for Congress--$500.
        06/30/02 Abbott for Governor--$500.
        07/11/02 Bowles for Senate--$500.
        08/22/02 Abbott for Governor--$500.
        09/29/02 Herseth for Congress--$500.
        10/01/02 Bowles for Sentate--$500.
        01/22/03 Leahy for Senate--$500.
        03/17/03 Daschle for Senate--$1000.
        03/26/03 Tauscher for Congress--$500.
        03/29/03 Kerry for President--$1000.
        05/08/03 Dorgan for Senate--$500.
        05/14/03 Feinstein for Senate--$500.
        05/21/03 Daschle for Senate--$1000.
        06/25/03 McGovern for Congress--$500.
        03/17/04 Clinton for Senate--$1000.
        06/16/04 Markey for Congress--$500.
        06/22/04 Herseth for Congress--$500.
        08/01/04 Mikulski for Senate--$1000.
        09/29/04 Oklahoma Senate race--$500.
        09/30/04 Herseth for Congress--$500.

    14. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals and any other special recognition 
for outstanding service or achievements.

        Coast Guard Distinguished Service medal.
        FAA Distinguished Service medal.
        Mount Marty College Distinguished Alumna.

    15. Please list each book, article, column, or publication you have 
authored, individually or with others, and any speeches that you have 
given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed: N/A.
    16. Please identify each instance in which you have testified 
orally or in writing before Congress in a nongovernmental capacity and 
specify the subject matter of each testimony.
    As Vice President for Public Policy for the National Trust for 
Historic Preservation, I testified before the Interior Appropriations 
Committee in support of funding for historic preservation, Save 
America's Treasures and for the National Parks.
    I also testified, in that capacity, before the House Parks 
Subcommittee on land issues in Wyoming.

                   B. POTENTIAL CONFLICTS OF INTEREST

    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers: N/A.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation or practice with any business, 
association or other organization during your appointment? If so, 
please explain.
    At the request of the Office of Government Ethics, I have agreed to 
resign from all of the Boards listed in question 11, with the exception 
of the Ignatian Lay Volunteer Corps Board. I was advised that I could 
continue to serve on that Board because it is affiliated with a 
religious institution.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated: N/A.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 5 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: N/A.
    5. Describe any activity during the past 5 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    As Vice President for Public Policy with the National Trust for 
Historic Preservation, we agreed with the Administration when we could 
on matters affecting preservation policy and funding and disagreed when 
we needed to. For example, we did not support the Administration's 
position on amending section 4f of the Highway bill. Section 4f is the 
strongest and most important historic preservation policy in federal 
law. We were concerned that changes proposed by the Administration 
would gut these important protections. We also advocated increased 
funding for Save America's Treasures and for the National Parks.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items: N/A.

                            C. LEGAL MATTERS

    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere ) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination.
    I don't believe there is anything additional to report.
    6. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion or any 
other basis? No.

                     D. RELATIONSHIP WITH COMMITTEE

    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.

    The Chairman. What are your opinions about the relationship 
of the Board to information security?
    Ms. Higgins. I did read the IG report and was very 
concerned, obviously, that there is this ability to breach the 
security system and access sensitive information collected by 
the Board. I think the Board's reputation is as strong as it is 
because it has, over the years, been able to gather all the 
facts, and to protect the information until the facts lead to 
the resolution of the investigation. When I was at the Labor 
Department, we put a great priority on improving the security 
of our technology systems, and I know it has been a priority 
for OMB, in our Administration, also for this administration. I 
will work with the Chairman and Vice Chairman and others--to 
make sure that those issues get the attention they deserve. It 
will undermine the credibility of the Board if those issues 
cannot be resolved.
    I think there is a corrective action plan that has been 
proposed. In looking at the response to the IG report, I think 
the agency concurs that there are significant problems here. It 
is unfortunate that more action has not been taken to date, but 
I am sure it will be a priority. It already is a priority. It 
will certainly be a priority for me.
    The Chairman. I apologize to everyone in the room about the 
heat. Obviously, the person maintaining that heat is not an 
Alaskan.
    [Laughter.]
    The Chairman. We are a little disturbed about this heat.
    Mr. Rosenker, you know I have had a personal experience 
with NTSB, an accident that I survived, and then also an Alaska 
Airlines plane I was supposed to be on and missed the 
connection and it crashed. And then my closest friend was on 
the one that turned upside down on Alaska Airlines and went 
into the Pacific Ocean off Point Waneemi.
    At the time, I got the impression that there was sort of a 
financial strain on NTSB in the last investigation. It does 
take a lot of money quickly to gather up facts on an 
investigation of tragedies such as the one in California.
    Are you diverting money away from the core missions of 
investigating accidents and making safety recommendations to do 
other things that the NTSB wants to do right now?
    Mr. Rosenker. No, sir, I would not agree with that.
    Sir, before I go into further answers, with your permission 
could I offer an opening statement, which perhaps may answer 
some of the questions that you may have already?
    The Chairman. A short one, yes.

        STATEMENT OF MARK V. ROSENKER, NOMINEE TO BE A 
       MEMBER OF THE NATIONAL TRANSPORTATION SAFETY BOARD

    Mr. Rosenker. Yes, sir I will do that.
    Good morning, Mr. Chairman, Mr. Co-Chairman, distinguished 
Members of our Committee. I am pleased and honored to appear 
before you today as you consider confirmation of my nomination 
as a Member of the National Transportation Safety Board for a 
second term. I am grateful to President Bush for this 
nomination and particularly for his confidence in my ability to 
continue to serve our Nation in this unique and critically 
important position.
    I would also like to thank Senator George Allen from my 
home State of Virginia for his generous and flattering remarks.
    As the Senator also said, my wife is behind me. I also have 
a lot of friends, colleagues, and former members and current 
members that are sitting in support of this nomination.
    For nearly 3 years, I have been privileged to serve as a 
Member, Vice Chairman, and most recently Acting Chairman of 
this small but widely known and well-respected federal agency.
    I have looked forward to this confirmation hearing since 
the announcement of my nomination, not only so that I can 
answer your questions, but to be able to share with the 
Committee my pride and enthusiasm for the NTSB. For nearly 4 
decades, the NTSB has been at the forefront of transportation 
safety issues, the protector, if you will, of America's vital 
transportation system. The Board is not only our Nation's 
premier accident investigation agency, but also enjoys a well-
earned reputation as the most effective and authoritative 
independent safety body in the world.
    Simply stated, sir, the men and women who make up the NTSB 
are the best in the business.
    I would also like to recognize my fellow Board Members, 
past and present, with whom I have been privileged to serve 
during my tenure in office. All of these men and women--
Democrat, Republican, and Independent--have brought a unique 
and valuable perspective to the decisionmaking process that is 
our responsibility.
    Whether determining the probable cause of an accident, 
recommending safety improvements, or deciding on federal 
enforcement actions, we routinely joined together with one 
objective in mind, and that is to raise the standard of safety 
within our Nation's transportation community. If confirmed to a 
second term, I commit to you and the American people that I 
will continue to make decisions and cast votes in that same 
spirit.
    Mr. Chairman, Mr. Co-Chairman, distinguished Members of the 
Committee, we all agree that the transportation industry is 
crucial to our economy. The independent safety board's primary 
and most significant role is to help ensure the public's 
confidence in the safety of this vital sector of our society.
    What I have seen and what I have learned as a Member of the 
NTSB is that the dedicated men and women who make up our 
Nation's transportation community, aviation, rail, marine, 
highway, and pipeline--the management, labor, owners, 
operators, and manufacturers, are all working closely together 
to make a safe industry even safer.
    I look forward, sir, to answering your questions.
    [The prepared statement and biographical information of Mr. 
Rosenker follow:]

 Prepared Statement of Mark V. Rosenker, Nominee to be a Member of the 
                  National Transportation Safety Board

    Good morning. Mr. Chairman, Mr. Co-Chairman, distinguished Members 
of the Committee. I am pleased and honored to appear before you today 
as you consider confirmation of my nomination as a Member of the 
National Transportation Safety Board for a second term. I am grateful 
to President Bush for this nomination and particularly for his 
confidence in my ability to continue to serve our Nation in this unique 
and critically important position.
    I would also like to thank Senator George Allen from my home State 
of Virginia for his kind introduction and support.
    With your permission Mr. Chairman, I would like to introduce my 
wife, Heather, who is here with me this morning.
    For nearly three years, I have been privileged to serve as a 
Member, Vice Chairman and most recently Acting Chairman of this small, 
but widely known and well-respected federal agency.
    I have looked forward to this confirmation hearing since the 
announcement of my nomination. Not only so that I can answer your 
questions, but also to be able to share with the Committee my pride in 
and enthusiasm for the National Transportation Safety Board. For nearly 
four decades, the NTSB has been at the forefront of transportation 
safety issues, the protector, if you will, of America's vital 
transportation system. The NTSB is not only our Nation's premier 
accident investigation agency, but also enjoys a well-earned reputation 
as the most effective and authoritative independent safety body in the 
world.
    Simply stated, the men and women who make up the NTSB are the 
``best in the business.''
    I would also like to recognize my fellow Board Members, past and 
present, with whom I've been privileged to serve during my tenure in 
office. All of these men and women--Democrat, Republican and 
Independent--have brought a unique and valuable perspective to the 
decision making process that is our responsibility.
    Whether determining the probable cause of an accident, recommending 
safety improvements, or deciding on federal enforcement actions, we 
routinely joined together with one objective in mind, to raise the 
standard of safety within our Nation's transportation community.
    If confirmed to a second term, I commit to you and the American 
people that I will continue to make decisions and cast votes in that 
same spirit.
    Mr. Chairman, Mr. Co-Chairman, distinguished Members of the 
Committee, we all agree that the transportation industry is crucial to 
our economy, and the independent Safety Board's primary and most 
significant role is to help ensure the public's confidence in the 
safety of this vital sector of our society.
    What I have seen and learned as a Member of the NTSB, is that the 
dedicated men and women who make up our Nation's transportation 
community--aviation, rail, marine, highway and pipeline--the 
management, labor, owners, operators, and manufacturers, are all 
working closely with us to make a safe industry even safer.
    I remain energized by the unique opportunity, if confirmed, of 
continuing to be a part of the strong and diverse leadership of this 
highly competent team of safety professionals and advocates. I am also 
very proud of the contributions I have made toward improving 
transportation safety during my tenure as a Member of the Board.
    I look forward to answering your questions.
                                 ______
                                 
                      A. BIOGRAPHICAL INFORMATION

    1. Name (Include any former names or nicknames used): Mark Victor 
Rosenker.
    2. Position to which nominated: Member, National Transportation 
Safety Board.
    3. Date of Nomination: April 4, 2005.
    4. Address (List current place of residence and office addresses):

        Residence: information not released to the public.

        Office: NTSB, 490 L'Enfant Plaza East, SW., Washington, DC 
        20594.

    5. Date and Place of Birth: 12/08/46, Baltimore, MD.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Heather Beldon Rosenker,
        Senior Vice President,
        Fleishman-Hillard Public Relations.

        No children.

    7. List all college and graduate degrees. Provide year and school 
attended.

        Baltimore Community College 1965-1966.
        University of Maryland 1966-1969, BA Communications.
        University of Maryland, University College, Graduate Study 
        1970-1971.
        Department of Defense Information School, Graduate 1969.
        Air Command and Staff College, Extension Course Institute, 
        Graduate, 1983-1985.
        Air War College, Associate Studies Program, Graduate, 1988-
        1990.

    8. List all management-level jobs held and any nonmanagerial jobs 
that relate to the position for which you are nominated.

        Member, Vice Chairman and Acting Chairman,
        National Transportation Safety Board, March 2003-present.

        United States Air Force and Air Force Reserve, Major General, 
        Mobilization Assistant to the Commander, Air Force Reserve 
        Command, (current rank and assignment) June 1969-present.

        Department of Transportation, Transportation Security 
        Administration, Program Manager, Special Projects Office, 
        November 2002-March 2003.

        The White House, Deputy Assistant to the President and Director 
        of the White House Military Office, January 2001-November 2002.

        United Network for Organ Sharing (UNOS), Assistant Executive 
        Director and Managing Director of the Washington, D.C. Office. 
        November 1999- January 2001.

        Electronic Industries Alliance, aka (Electronic Industries 
        Association) Corporate Officer and Vice President, Public 
        Affairs, February 1977-October 1999.

        Motorized Bicycle Association, aka (American Moped 
        Association), Director of Communications, January 1975- January 
        1976.

        Daniel J. Edelman Public Relations, Account Executive, 
        September 1973-January 1975. Represented American Safety Belt 
        Council, Motorcycle Safety Foundation, and the Safety Helmet 
        Council of America.

    9. List any advisory, consultative, honorary or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last five years: None.
    10. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational or other institution within the last five years.

        United Network for Organ Sharing (UNOS)--Assistant Executive 
        Director for External Affairs and Managing Director, 
        Washington, D.C. office.

        Boat Slip Rental Property--50 percent interest; sold January 
        2002.

        Brat Pack Investment Club--20 percent interest. Sole holding 
        1,295 shares of ADC Telecommunications.

    11. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age or handicap.

        Army Navy Club, Washington, D.C.--1999-present.
        Andrews AFB Officers Club, Andrews AFB, MD--1969-present.
        Capitol Hill Club--1973-2000.
        Bryce Resort, Basye, VA--1986-present.
        Military Order of the Carabao--2001-present.
        Aero Club, Board Member--2005-present.

    12. Have you ever been a candidate for public office? If so, 
indicate whether any campaign has any outstanding debt, the amount, and 
whether you are personally liable for that debt: No.
    13. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years.

        2004--Bush-Cheney Campaign--$2,000.
        2000--Darrell Issa for Congress--$500.

    14. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals and any other special recognition 
for outstanding service or achievements.
    University of Maryland Centennial Distinguished Graduate, 2001; 
American Battle Monuments Commission Distinguished Service Medal; USAF 
Distinguished Service Medal; Legion of Merit, Meritorious Service Medal 
(1 oak leaf cluster) USAF Commendation Medal; Department of Defense 
Achievement Medal; USAF Achievement Medal (1 oak leaf cluster).
    15. Please list each book, article, column, or publication you have 
authored, individually or with others, and any speeches that you have 
given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
    All speeches that I have given relevant to transportation safety 
may be viewed on the NTSB website.
    16. Please identify each instance in which you have testified 
orally or in writing before Congress in a non-governmental capacity and 
specify the subject matter of each testimony: None.

                   B. POTENTIAL CONFLICTS OF INTEREST

    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers: None.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation or practice with any business, 
association or other organization during your appointment? No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated: None.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 5 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: None.
    5. Describe any activity during the past 5 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    During my appointment as a Member of the NTSB, I have been a strong 
transportation safety advocate and on numerous occasions invited to 
testify before state legislatures, particularly on issues of highway 
and recreational boating safety. In addition, the Board has made a 
significant number of recommendations to federal agencies, state and 
local governments, organizations, operators and manufacturers 
concerning regulations or safety issues dealing with various modes of 
transportation.
    During my career as chief spokesman for the Electronic Industries 
Alliance, representing the U.S. electronics industry, and the United 
Network for Organ Sharing, UNOS, (the national organ transplant 
network), I have made numerous statements and answered a myriad of 
media queries on a host of issues having to do with the laws, 
regulations, and policies of those two diverse communities. Some of the 
major issues I spoke out in support of included: NAFTA, Making 
Permanent the R&D Tax Credit, Improvement of Export Controls, Rewrite 
of Circular A76, privatization and outsourcing, federal rules 
pertaining to Organ Donation and Allocation. My role was not that of a 
registered lobbyist.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    As a senior officer in the Air Force Reserve, if confirmed, I will 
continue to recuse myself from any investigation involving an USAF 
aircraft unless the Chairman found my participation necessary and 
appropriate. I believe there are no other issues that would constitute 
a conflict of interest.

                            C. LEGAL MATTERS

    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain.
    Detained in 1965 at the age of 18, along with two friends, in 
Atlantic City NJ, malicious mischief, charges dismissed. Detained in 
1966 at the age of 19, along with one friend, in Baltimore, MD, 
possession of beer below age of 21, charges dismissed.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    During my employment as an officer of EIA, the Association was 
involved in routine civil litigation. I was never a party, nor a 
witness in any of those proceedings.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere ) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
    6. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion or any 
other basis? No.

                     D. RELATIONSHIP WITH COMMITTEE

    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.

    The Chairman. Thank you. Now answer my question. I am told 
you are diverting money away from investigating accidents to 
support other functions. I am told that the training academy is 
losing money and that you have cited budgetary pressure for not 
investigating every fatal accident. Is that true?
    Mr. Rosenker. Sir, we look at every single general aviation 
accident by law. We take a look at virtually every one of the 
railroad accidents that has some fatality or significant 
damage. In marine, we look at the major catastrophic marine 
accidents as an agreed-to by our Coast Guard MOU. In highway, 
of course, we cannot look at the 43,000 accidents that occur 
that result in fatalities. And in pipeline, we look at every 
one of the pipeline accidents that occurs in a fatality.
    Our academy was created in concept in the year 2000, well 
before this Administration came to work in this Board. Whether 
I would have made a decision to create this academy or not I 
think is not the issue. The issue is what are we doing at this 
academy to further the investigation capability of the NTSB and 
to enhance safety in all modes of transportation.
    There is a basic funding that was created, I believe, as 
part of the opportunity to put together the academy, and that 
was we were housing flight TWA 800, which was the 747 that blew 
up, as it left in 1996 on its way from JFK to Paris. That was 
the most expensive accident that the NTSB has ever 
investigated, well over $40 million. As you may recall, back at 
that time, there was a question of really what happened. And it 
took us a good deal of time. There were two actual 
investigations going on simultaneously: one with the FBI and 
one with the NTSB. There was belief at one point that it could 
have been a bomb that exploded that brought down that 747 and 
killed 230 passengers. It turned out that it was not. It turned 
out that it was a center wing fuel tank explosion.
    The Chairman. I do not really want a lecture. I want an 
answer to the question. Are you diverting money from your 
accident funds for other purposes?
    Mr. Rosenker. The approximate budget is around $3.5 million 
to operate the academy. $2.5 million comes from an increase in 
our appropriation that was given by Congress to support the 
facility and house the 747 at the academy. There is about 
$700,000 that comes in income from the courses. So there is a 
shortfall of approximately $750,000 to $800,000 that must be 
looked at. But we, in fact, are teaching courses out there that 
we have been teaching for years. The basic investigation course 
is being taught. We were teaching that well before there was an 
academy.
    We are also using that academy for three purposes: one a 
COOP site. We are also renting that COOP site to other federal 
agencies, and I would be able to provide that list to you. 
Second, housing, our regional office in the Ashburn Academy 
Facility. And third, we have created an enhanced laboratory 
capability that we needed sorely that we could not have done in 
our Washington headquarters. So part of that shortfall is, in 
fact, additional infrastructure that we would be needing 
anyway, sir.
    But as far as are we taking resources away from our 
investigators, I do not believe we are doing that, sir.
    The Chairman. Well, let me do this. I want to request, on 
behalf of the Committee, that you provide this Committee with 
updates on your actions taken to address the Inspector 
General's audits every 60 days until that is complete.
    Mr. Rosenker. Yes, sir, we will do that.
    The Chairman. Ms. Dale, I am sorry to have delayed to get 
to you. I was waiting for the Senator from Texas who wanted to 
introduce you, and we just received word that she is on a plane 
from Texas, which was delayed in coming. So I do want to 
recognize that you are here and that we have a series of 
questions for you.
    As I indicated in my opening statement, I was sort of 
intrigued by the new vision of the President with regard to 
changes at NASA. Can you tell us really what you see your role 
will be in that process of turning NASA back toward deep space 
exploration?
    Ms. Dale. Yes, sir. My role will be assisting the 
administrator on overall leadership policy direction and 
planning and management of the agency.
    In terms of the vision for space exploration, one of the 
things that Mike Griffin wanted was a complete skill set at the 
top of NASA within the senior leadership team. He already has 
an associate administrator who has long-term agency experience. 
He himself has great technical experience, as you know, in 
terms of being inside the agency and also working long-term in 
the space community, including being the head of In-Q-Tel. He 
has great leadership capabilities. What he was seeking in me 
was agency management experience, political and policymaking 
expertise, as well as a comprehensive knowledge of NASA and the 
aerospace community.
    So my roles and priorities, as I go into NASA, will be 
helping to implement the vision for space exploration, 
continuing on with space operations, the International Space 
Station and the Space Shuttle, and making sure that there is a 
healthy overall balanced program with science and aeronautics. 
And then some of my first priorities going into the agency, if 
I am confirmed, would be the agency's financial management 
system and also work force issues.
    The Chairman. Thank you very much.
    Ms. Higgins and Ms. Dale, did you have opening statements? 
We do not usually have opening statements on nominees, but if 
you have one, we would be glad to listen to them.
    Ms. Higgins. Senator, I did. You have it for the record, 
and I think enough has been said.
    The Chairman. Thank you.
    Ms. Dale?
    Ms. Dale. I do have an opening statement, sir, if you would 
like.
    The Chairman. Do you wish to acknowledge anyone present, 
Ms. Higgins?
    Ms. Higgins. My daughter-in-law is here, Kate Higgins, and 
a number of friends and colleagues I have worked with over the 
years.
    The Chairman. Ms. Dale?
    Ms. Dale. My family members, my significant other, Mike 
Fagan, is here, as well as my father, John Dale.
    The Chairman. Thank you very much.
    Would you like to read your statement?
    Ms. Dale. If you so desire, sir.
    The Chairman. I think we would be happy to listen to it, 
yes.

      STATEMENT OF SHANA LEIGH DALE, NOMINEE TO BE DEPUTY 
                     ADMINISTRATOR OF NASA

    Ms. Dale. Mr. Chairman, Co-Chairman Inouye, and Members of 
the Committee, I am honored to be President Bush's nominee to 
be the Deputy Administrator of NASA. I would like to thank Mike 
Griffin for recommending me to be his deputy, and I would like 
to thank President Bush for nominating me to this position. I 
am honored and excited to be considered to serve at NASA.
    I believe that NASA is entering a period of great promise, 
excitement, and opportunity. One key reason for this is the 
President's Vision for Space Exploration, a bold and energizing 
mission for NASA's future. At the same time, it has been 
designed specifically to be affordable and sustainable, with 
the resilience to survive budgetary fluctuations that may occur 
in the future. This is a critical point because this space 
exploration initiative spans decades into the future. 
Ultimately the quest is to extend human exploration across the 
solar system.
    If confirmed as Deputy Administrator, I am committed to 
working with Administrator Griffin, the people of NASA, 
Congress, the White House, and the private sector to lay the 
foundation ultimately necessary to achieve the Vision for Space 
Exploration.
    In particular, I look forward to working with the aerospace 
work force because I understand and value their unique skills 
and expertise, as well as their contribution to this Nation's 
economic competitiveness.
    My written statement goes on to discuss the very important 
missions of the International Space Station, the Space Shuttle, 
science and aeronautics, as well as the need for a healthy 
overall program within NASA.
    Mr. Chairman, I have long been a supporter of this Nation's 
aerospace efforts, and if confirmed, I look forward to being a 
part of the team that leads NASA into the future. I also look 
forward to being a very strong advocate for NASA.
    My professional background has positioned me to provide a 
unique fit with NASA's senior leadership. The breadth and the 
depth of my experience comes from working in the executive 
branch, legislative branch, and academia for the past 15 years. 
I have on-the-ground knowledge of the inner workings of the 
White House and Congress, and I understand the complexities and 
challenges of how agencies interact. This extensive political 
and policymaking expertise will be crucial to successfully 
navigating the challenging times that lie ahead for NASA.
    Further, I developed a comprehensive knowledge of NASA and 
the aerospace community during my tenure as Staff Director of 
the House Space and Aeronautics Subcommittee in the 1990s. 
Legislative oversight of NASA's budget, policies, and programs 
provided me with an in-depth understanding of and sensitivity 
for the issues facing the agency.
    If confirmed, my fundamental areas of expertise, combined 
with the Administrator's technical expertise and leadership and 
the Associate Administrator's long-term agency experience, will 
produce a formidable and complete skill set within the senior 
team that leads NASA into the future.
    These are exciting and challenging times at NASA, and I 
want to help the agency build even stronger relationships with 
Congress, the White House, and the American people. If 
confirmed, I look forward to working in an environment of 
accomplishment and achievement at NASA, a place where 
significant scientific and technological breakthroughs are 
everyday occurrences. I am excited about the opportunity to 
become a part of the team at NASA, and I look forward to 
developing a very strong working relationship with this 
Committee.
    I am honored to be nominated and I thank you for the 
opportunity to appear before you today, sir. Thank you.
    [The prepared statement and biographical information of Ms. 
Dale follow:]

     Prepared Statement of Shana Leigh Dale, Nominee to be Deputy 
                         Administrator of NASA

    Mr. Chairman, Co-Chairman Inouye, and Members of the Committee, I 
am honored to appear before you today as President Bush's nominee to be 
the Deputy Administrator of NASA. I would like to thank Mike Griffin 
for recommending me to be his Deputy and I would like to thank 
President Bush for nominating me for this position.
    I believe that NASA is entering a period of great promise, 
excitement, and opportunity. One key reason for this is the President's 
Vision for Space Exploration--a bold and energizing mission for NASA's 
future.
    In 2004, the President said ``We have undertaken space travel 
because the desire to explore and understand is part of our 
character.'' He went on to say we are ``drawn to the heavens for the 
same reason we were once drawn into unknown lands and across the open 
sea. We choose to explore space because doing so improves our lives, 
and lifts our national spirit.''
    The President's Vision for Space Exploration is a direct reflection 
of these fundamental goals and desires. At the same time, it has been 
designed specifically to be sustainable and affordable, with the 
resilience to survive budgetary fluctuations that may occur in the 
future. This is a critical point because this space exploration 
initiative will span decades into the future. Ultimately, the quest is 
to extend human exploration across the Solar System.
    If confirmed as Deputy Administrator, I am committed to working 
with Administrator Griffin, the people of NASA, Congress, the White 
House, and the private sector to lay the foundation necessary to 
ultimately achieve the Vision for Space Exploration.
    When Americans think of human space exploration today, they think 
first of the Space Shuttle and the International Space Station.
    The Space Shuttle has provided technological advances and knowledge 
that will be especially useful for the Exploration Vision. 
Administrator Griffin has described the Space Shuttle as an amazing 
vehicle, designed by this Nation's most brilliant aerospace engineers.
    Over the last five years, the U.S. and its international partners 
have built a 400,000 pound space station in low Earth orbit which 
enables critically important research. The International Space Station 
enables research on the effects of space on human health that is 
important for longer term space travel beyond low Earth orbit.
    Another important goal is achieving a balanced overall program of 
science, aeronautics, exploration, and space operations. It is my 
belief that it is possible, and in fact, very important, to maintain 
healthy programs in science and aeronautics. As Mike Griffin has 
stated, even in the Apollo era when the race was on to get to the Moon, 
NASA was able to execute dozens of science missions and maintain a 
robust program of aeronautics development.
    NASA's Science Directorate seeks to understand the origins, 
evolution, and destiny of the universe and to understand the nature of 
the unique phenomena that shape it. The Directorate seeks to understand 
the Sun and Earth, the nature of life in the universe, what kinds of 
life may exist beyond Earth, and the nature of the solar system--
scientifically and in preparation for human exploration. Scientific 
discoveries from missions such as the Hubble Space Telescope, Voyager, 
Aqua, and the two Mars rovers further the fundamental missions of NASA 
and spark the imagination of people around the world.
    In aeronautics, NASA is currently re-shaping the program to focus 
in three important areas. First, mastery of core competencies in 
subsonic, supersonic, and hypersonic flight; second, research in 
aviation safety that takes advantage of the agency's unique 
capabilities; and third, partnership with the FAA and other agencies to 
directly address the needs of the Next Generation Air Transportation 
System. NASA also is moving in the direction of reinvesting in in-house 
expertise, establishing a program to ensure that essential wind tunnel 
facilities are maintained, and building strong partnerships with the 
Defense Department, industry, and academia.
    Mr. Chairman, I am excited for the opportunity to serve the United 
States' space program. I have long been a supporter of our Nation's 
aerospace efforts and, if confirmed, look forward to becoming an 
advocate for NASA in the aerospace community, within the Executive 
Branch, before the U.S. Congress, and to the American public.
    The breadth and the depth of my experience for the position of 
Deputy Administrator come from working in the Legislative branch, the 
Executive branch, and academia for the past 15 years. My experience for 
this position is in 3 fundamental areas: (1) agency management; (2) 
policymaking; and (3) a comprehensive knowledge of NASA and the 
aerospace community.

    Let me provide some specifics:
    My extensive agency management experience comes from my years at 
the Office of Science and Technology Policy (OSTP). I came to the 
agency at a time when it had a skeleton staff and had very few standard 
operating procedures. My task was to build the agency from the ground 
up. I focused on 3 key elements: recruiting skilled staff, developing 
operating procedures, and creating trusted working relationships.
    Soon after arriving at OSTP, I developed a plan for determining the 
critical skill sets needed in the agency and mapping those against 
existing expertise. I worked to recruit highly qualified scientists and 
engineers and senior staff for communications, legislative affairs, 
budget, financial management, security and human resources.
    Second, I turned my attention to developing operating procedures 
for the entire agency which established an environment for efficient 
and effective management of day-to-day operations and decision-making 
processes.
    Third, consistent with the approach I have taken throughout my 
public service, I developed trusted working relationships within OSTP, 
with senior staff in other offices of the Executive Office of the 
President, and with officials in the federal agencies, and Congress, 
the private sector and the international community.
    My extensive political and policymaking experience comes from 
working for the past 15 years in Washington D.C. I have on-the-ground 
experience with the inner workings of the White House and Congress, and 
understand the complexities and challenges of how agencies interact and 
how to successfully accomplish program and policy objectives.
    While serving as Chief of Staff and General Counsel at the Office 
of Science and Technology Policy, I had the additional responsibility 
of leading the homeland and national security staff. In the early days 
after 9/11, this included leading and executing homeland security 
technical operations--a highly unusual function for a policy office. 
These political and policymaking skills will be crucial to helping NASA 
successfully navigate the challenging times ahead.
    The third element of my experience for this position is due to my 
role as Staff Director of the House Space and Aeronautics Subcommittee 
in the 1990s. During that tenure, I developed a comprehensive knowledge 
of NASA and the aerospace community. Legislative oversight of NASA's 
budget, policies, and programs provided me an in-depth understanding 
of, and sensitivity for, the issues facing the agency.
    If confirmed, my fundamental areas of expertise combined with the 
Administrator's technical expertise and leadership and the Associate 
Administrator's long-term agency experience will produce a powerful and 
complete skill set within the senior team to lead NASA into the future.
    These are exciting and challenging times for NASA and I want to 
help the agency build even stronger relationships with Congress, the 
White House, and the American people. If confirmed, I look forward to 
working in an environment of accomplishment and achievement at NASA, a 
place where significant scientific and technological breakthroughs are 
everyday occurrences. I am honored to be nominated and I thank you for 
the opportunity to appear before you today.
    Mr. Chairman, I am happy to answer questions you or the rest of the 
Committee may have.
                                 ______
                                 
                      A. BIOGRAPHICAL INFORMATION

    1. Name (Include any former names or nicknames used): Shana Leigh 
Dale.
    2. Position to which nominated: Deputy Administrator, National 
Aeronautics and Space Administration.
    3. Date of Nomination: September 13, 2005.
    4. Address (List current place of residence and office addresses):

        Residence: information not released to the public.
        Office: New Executive Office Building, Washington, DC 20502.

    5. Date and Place of Birth: 9/16/1964, Decatur, GA.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage). Not applicable.
    7. List all college and graduate degrees. Provide year and school 
attended.

        1989, JD, California Western School of Law, San Diego, 
        California.
        1986, BS, University of Tulsa, Tulsa, Oklahoma.

    8. List all management-level jobs held and any non-managerial jobs 
that relate to the position for which you are nominated.

        5/2001-present, Office of Science and Technology Policy, 
        Executive Office of the President (General Counsel, Chief of 
        Staff and General Counsel, Deputy Director for Homeland and 
        National Security).

        3/2000-5/2001, University of Texas System, Assistant Vice 
        Chancellor.

        3/1991-3/2000, Science Committee, U.S. House of Representatives 
        (Republican Counsel to Science Subcommittee and then Space 
        Subcommittee; Staff Director of Space & Aeronautics 
        Subcommittee).

    9. List any advisory, consultative, honorary or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last five years: None.
    10. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational or other institution within the last five years.

        Assistant Vice Chancellor, University of Texas System, 3/2000-
        5/2001.
        Women in Aerospace, Board Member, 1997-2000.

    11. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age or handicap.

        Women in Aerospace, Board Member, 1997-2000.
        Member, California State Bar, 1990-present.
        Member, District of Columbia Bar, 1991-present.

    12. Have you ever been a candidate for public office? If so, 
indicate whether any campaign has any outstanding debt, the amount, and 
whether you are personally liable for that debt: No.
    13. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. 7/2004, $2000 Bush-Cheney 
2004.
    14. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals and any other special recognition 
for outstanding service or achievements.

        Merit Scholar, California Western School of Law.
        Outstanding WIA Emeritus Award, Women in Aerospace.

    15. Please list each book, article, column, or publication you have 
authored, individually or with others, and any speeches that you have 
given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.

    Articles

        1989, Remote Sensing Satellites: Privacy and National Security 
        Concerns Clash with Media's Right of Free Speech, Al Simon 
        Center for Telecommunications Law.

    Speeches

        1995, Women in Aerospace.
        1998, U.S. Space Foundation, National Space Symposium.
        3/2001, National Academy of Sciences.

    16, Please identify each instance in which you have testified 
orally or in writing before Congress in a non-governmental capacity and 
specify the subject matter of each testimony: None.

                   B. POTENTIAL CONFLICTS OF INTEREST

    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers: University of Texas Retirement Savings Account.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation or practice with any business, 
association or other organization during your appointment? No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated: None known.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 5 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: None.
    5. Describe any activity during the past 5 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy: University of 
Texas System, Assistant Vice Chancellor--tracked legislation that 
affected the University of Texas System.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items: Should there be a conflict of interest, I would divest that 
financial interest.

                            C. LEGAL MATTERS

    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain: Civil lawsuit filed in San 
Diego Small Claims Court in September 1988 by David Ebner citing breach 
of oral contract that he could live in the same apartment with me for 
the summer of 1988. Mr. Ebner dropped the lawsuit.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere ) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: I do not possess any additional 
favorable or unfavorable information to be disclosed in connection with 
my nomination.
    6. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion or any 
other basis? No.

                     D. RELATIONSHIP WITH COMMITTEE

    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.

    The Chairman. Thank you very much.
    I have been called to a leadership meeting. The Co-Chairman 
will complete this hearing.
    Senator Inouye. [presiding] Thank you very much, Ms. Dale. 
As the Chairman indicated, you have been highly recommended by 
Mr. Griffin.
    However, as you are well aware, last week GAO issued a 
report citing that they submitted 45 recommendations to NASA in 
2003, and of that number, 3 have been implemented and I believe 
13 partially implemented. These recommendations are on the 
improvement of financial management. What words do you have to 
share with us on that?
    Ms. Dale. Thank you, sir. I am also troubled by the hearing 
from last week and the GAO recommendations on the financial 
management system at NASA. This was an issue that I dealt with 
when I was Staff Director of the House Space and Aeronautics 
Subcommittee in the 1990s, and unfortunately, it is still an 
issue that challenges NASA today.
    Obviously, we are all in need of a sound financial 
management system at NASA that we can all depend upon, one that 
provides reliable cost estimates and reliable financial 
management.
    My plan, if confirmed, is to meet immediately with the 
Chief Financial Officer to have a discussion about the 
recommendations that have been made by GAO and where the agency 
is in terms of implementing the remaining recommendations and 
what the plan is for what I understand to be a joint corrective 
plan to be sent forward from the CFO and the NASA IG.
    I also plan to meet with the Executive Director of the 
integrated financial management program and CIO to have further 
discussions about the enterprise architecture and the 
recommendations that have been made by GAO.
    These are the immediate steps, as well as meeting with the 
senior advisory group that has been established by Mike 
Griffin. This takes in experts from other agencies that are 
providing independent advice on the financial management system 
within NASA. I also plan to meet with them very soon, if I am 
confirmed, to gain their understanding and their independent 
assessment of where NASA is in the process.
    My plan is to have very aggressive oversight of where NASA 
is with their financial management system. This definitely 
needs to be brought under control. I know that there has been 
progress that has been made within the financial management 
system. I need to get on-the-ground truth about what is 
actually happening at the agency.
    Senator Inouye. Of the 45 recommendations, 16 were 
partially or fully implemented. That left 29. Were they 
ignored, the remaining 29?
    Ms. Dale. Senator Inouye, my understanding is that the NASA 
CFO has made statements indicating that she believes other 
parts of the recommendations have already been complied with. 
That is something that, if I am confirmed, I need to find out 
immediately upon entering the agency, where does she think the 
agency is in terms of complying with the recommendations, 
looking over the GAO recommendations, and also having 
discussions with the senior advisory group to see what their 
take is in terms of an independent assessment of whether NASA 
is actually complying with the remaining GAO recommendations.
    Senator Inouye. Will you share with this Committee the 
findings that you make on these?
    Ms. Dale. Absolutely, sir.
    Senator Inouye. Ms. Higgins, you come highly recommended by 
your friends. What are your thoughts on the fact that airline 
accidents are now being diminished as compared to other 
accidents, rail and highways and such? What should be the core 
mission of your organization? Because whenever we hear of NTSB, 
we hear of airlines.
    Ms. Higgins. Senator, I have been, obviously, following 
these issues much more closely in the last few months. Vice 
Chairman Rosenker was just up in New York at the significant 
accident there, the boating accident on Lake George that 
resulted in a tremendous loss of life. Member Hersman, who is 
here, represented the Board at the rail accident in South 
Carolina, that again, caused a significant loss of life. There 
was a bus accident in Texas recently in the days before 
hurricane Rita that resulted in significant loss of life. So 
the Board, my sense is, has kept pretty busy even though there 
have not been a number of aviation accidents recently. And 
while aviation I think has the largest jurisdiction because it 
includes general aviation, as well as all other accidents, 
clearly they have major responsibilities in all of the other 
modes as well.
    I do think the staff are stretched pretty thin. I do not 
know what can be done about that, but I think, again from my 
perspective having read this RAND report, they anticipated some 
of these challenges and suggested that there was a need to look 
at how to better use resources and to bring to bear outside 
resources, not just relying on the in-house staff for the work 
that needs to be done.
    Senator Inouye. Your agency is primarily an agency for 
investigation.
    Ms. Higgins. Yes.
    Senator Inouye. In the process, you are bound to find 
errors that were made. Do you also make recommendations as to 
how to improve safety?
    Ms. Higgins. Yes. My understanding is the Board definitely 
does.
    Senator Inouye. Should that be a more important part of the 
mission?
    Ms. Higgins. I think not only just making recommendations, 
Senator. I think it is also making sure that recommendations 
are implemented. It does not do any good to make 
recommendations that are never followed through. In looking at 
the recommendations currently unimplemented--as has been 
mentioned, I was involved in the TWA 800 accident that took 
place almost 10 years ago. Next summer will be the 10th 
anniversary of that accident. The most significant 
recommendation has not been fully implemented. The FAA is 
working on it. My understanding is the regulation is at OMB, 
but I find it of concern that 10 years later, that major 
recommendation has not been fully implemented.
    Runway incursions is another area where there have been 
recommendations made, again not implemented by the FAA or not 
fully implemented.
    I know there has been an initiative to try to close out 
NTSB recommendations. The Board and the members are doing more 
to work with state and local governments where they have 
jurisdiction. So I think there is some of that effort going on, 
but I think more needs to be done, not just to do the 
investigations and make recommendations, but really to follow 
it all the way through until the actions are taken.
    Senator Inouye. I realize that with 43,000 highway 
fatalities, you do not have the time to investigate even 1 
percent of them. But we note that too large a proportion of 
those involve teenagers and it also involves exceeding speeds. 
Do you have any recommendations as to what state laws should 
be?
    Ms. Higgins. On speed limits?
    Senator Inouye. On teenagers.
    Ms. Higgins. I have not looked into that specifically. I 
have raised two teenagers, and they had their share of 
accidents. Fortunately, they were all minor. I know that the 
Board has looked at the issue of teenagers and cell phones as 
something that needs to be addressed by states, and I know some 
states are looking at the whole issue of cell phone use. Seat 
belts, that is obviously a major concern. That is something the 
Board has paid particular attention to. Alcohol as a 
contributor to accidents. So they have taken initiatives in a 
number of areas.
    I do not know enough about the work that they have done 
specifically focusing on young drivers. I think driver 
education and driver preparation is probably another area, and 
I think the Board has done some work there, but certainly more 
can be done. I think the roads are very dangerous for young 
people. There have been a number of significant accidents just 
in this metropolitan area alone very recently where young 
people have lost their lives. So it should be of great concern 
to all of us.
    Senator Inouye. Mr. Rosenker, every life is valuable 
whether it is 1 or 1,000, and when you compare the fatality 
rate on the highways with Iraq, Iraq seems to be a very safe 
place. Do you have any recommendations?
    Mr. Rosenker. Sir, I do. Many, many years ago I started in 
highway safety as one of the advocates for the safety belt use 
laws to require safety belt use. I remember back when we began 
that crusade, it was like talking about invading someone's 
home, and yet 35 years later, we now have over 82 percent of 
the American people using safety belts.
    When I began in that program--as an advocate--55,000 people 
were dying on the Nation's highways with fewer cars being 
driven. So we have made significant progress, but I think more 
can be done, sir.
    This is a personal opinion. This is not necessarily a Board 
position, but I believe technology has a tremendous role to 
play in the business of not just mitigating the results of an 
accident, but the business of accident prevention. There are 3 
million injuries and 6 million accidents. If we can begin to 
include as not just features, if you will, but requirements in 
our highways, as it relates to cars and trucks, things like 
electronic stability control, short-range automotive radar, we 
can begin the process of reducing, actually preventing the 
accident from occurring, rather than just mitigating the 
results after the accident has occurred. Now, again, sir, this 
is not a Board position. This is just my personal opinion.
    Senator Inouye. Ms. Higgins, in this war on terrorism, we 
require by law and we mandate that certain things occur, and 
yet the potential for death and destruction on our highways is 
much greater than what terrorism has wrecked upon us. Do you 
think that we should go beyond recommendations and just say 
this is the way it is going to be done?
    Ms. Higgins. This is an area that I need to learn more 
about. But I think in our 50 states, each state has different 
speed limits, has different requirements for issuing driver's 
licenses. I think there have been challenges over the years to 
try to have uniform standards in those areas. I think, as 
Chairman Rosenker has said, education can play a significant 
role here, and I think more work can be done by the Board in 
working with State legislators and local communities and 
various organizations to try to implement the practices that we 
know save lives. Certainly the Board works with the National 
Highway Traffic Safety Administration and the other modes in 
DOT to look at safety, and this is an area, if the Committee 
requests or desires, we can certainly begin to pay more 
attention to.
    The other issue, which is not really the jurisdiction of 
the Board, but you can save lives on the highways by getting 
people out of their cars and into public transit. That is 
something, again, that is an issue of resources and priorities, 
but I think personally that that is an area that deserves 
greater attention.
    Senator Inouye. Thank you very much.
    Senator Pryor.

                 STATEMENT OF HON. MARK PRYOR, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Pryor. Thank you, Mr. Chairman.
    Ms. Dale, I would like to talk to you briefly about the 
EPSCOR program. My sense of EPSCOR and other space grant 
programs is that these programs are very beneficial to research 
institutions. I think in the larger picture, they really help 
America have a competitive research base. I would like to get 
your thoughts on the long-term vision for EPSCOR and other 
educational programs that NASA offers.
    Ms. Dale. Thank you, sir. I am also supportive of EPSCOR. I 
think it is an important education program that serves 
historically under-represented geographical communities across 
the country. It is my understanding that NASA plans to continue 
to support EPSCOR into the future.
    I do not have as much familiarity with EPSCOR as I would 
like to, and that is something that I would like to have 
continuing dialog, if I am confirmed, with you and your staff, 
suggestions that you may have, what you think priorities are, 
and also assess, as I enter the agency, what the state of 
EPSCOR is. I am very much interested in the education programs 
at NASA. It is something that OSTP, the office that I come 
from, is interested in throughout the Federal Government, the 
science and technology programs for education--where they 
reside in particular agencies and how effective they are. So 
that is something that I will be interested in as well.
    Senator Pryor. Great. I would love for you to keep me 
posted on that as you delve into that.
    Ms. Dale. Yes, sir.
    Senator Pryor. I know that oftentimes NASA's headlines or 
news coverage tend to be dominated by the human space flight 
program, and we understand that. But NASA does many other 
things, and one of the things you have had at NASA, at the 
agency, is you have had an initiative on nanotechnology, which 
I think is really potentially very, very significant. I know 
research institutions in my state are very focused on 
nanotechnology, as they are around the country, and it really 
has a very promising future I believe.
    But nonetheless, you do have budget pressures. I know there 
are nanotechnology and many other programs, talking about 
EPSCOR. How do you find the appropriate balance between human 
space flight and the other very important scientific missions 
that NASA has?
    Ms. Dale. Well, I can tell you, sir, that Administrator 
Griffin has expressed on many occasions his commitment to an 
overall balanced program within NASA. I share that commitment. 
I believe that it is possible and, in fact, very, very 
important to maintain a balance among human space flight, the 
space operations missions, and science and aeronautics within 
the agency. I think Administrator Griffin's commitment has been 
unwavering on that point, to make sure that as the agency 
proceeds forward in the next couple of years, that that 
commitment to an overall healthy balance is maintained, and I 
am committed to that as well, sir.
    Senator Pryor. Great.
    I know that in September NASA released its exploration 
architecture study which includes a plan to return to the moon 
with Apollo-style capsules, I believe around the year 2018. The 
projected cost on that will be $104 billion. As I understand 
the plan, NASA is going to try to find savings within existing 
programs in order to shift resources to this return to the 
moon. But as I understand it, maybe one of the areas of savings 
might be with the Shuttle program, but news reports have 
indicated that over the next 5 years, the Shuttle will actually 
need more money, not less, to operate.
    So my question for you is where do you think NASA will look 
to find that $104 billion.
    Ms. Dale. Thank you, sir.
    The first important point to emphasize is that the cost 
estimate that you made reference to is something that is 
actually built into NASA's base budget over many, many years. 
The Vision for Space Exploration is also one that relies upon 
existing infrastructure. It is a shuttle-derived system. So it 
will be taking advantage of the workforce that presently 
exists, a highly skilled and highly technical workforce, the 
knowledge base that is resident with them, and also 
infrastructure that will be common to both the Space Shuttle 
and the Vision for Space Exploration.
    It is also important to note that this vision expands 
decades into the future, and it is an important step in terms 
of a sustainable, affordable approach. The approach is also go-
as-you-can-afford-to-pay. So it is one that is designed with 
the resilience to withstand budgetary fluctuations in the 
future.
    You mentioned cost difficulties associated with the 
Shuttle. That is definitely an ongoing challenge within the 
agency, and it is my understanding that NASA is in dialogue 
with the Office of Management and Budget on the challenges of 
the Space Shuttle budget.
    Senator Pryor. Thank you.
    Now, Mr. Rosenker and Ms. Higgins, in Arkansas we had a 
train accident on October 15 in Texarkana, Arkansas, which 
straddles the line between Arkansas and Texas. So you are going 
to have four Senators who are interested in this. It was a 
Union Pacific train coming into the station. Apparently it 
collided with another Union Pacific train that was stationary 
on the tracks. There was an explosion. It killed one Arkansan, 
hospitalized 20 other people, destroyed two homes and a rail 
bridge, and 700 people had to be evacuated from their homes 
temporarily due to the release of some gas or at least a feared 
release of some gas. I am very sorry that happened.
    As I understand it, you all have that under investigation 
right now?
    Mr. Rosenker. Yes, sir. We sent a team down there within 8 
to 10 hours of the accident. Perhaps it was a bit longer, maybe 
as much as 12. But we did dispatch a team down there, and they 
are beginning right now to analyze what has happened.
    Senator Pryor. How long do those typically take?
    Mr. Rosenker. Sir, we are looking at train accidents, 
depending upon the complexity of it, anywhere from 12 to 18 
months. We have one that we are looking at that we are going to 
be releasing in November that occurred in Graniteville. I 
believe it occurred in January and it will be released at the 
end of November. That will be approximately 10 months.
    Senator Pryor. Well, 10 months is better than 12 or 18.
    Mr. Rosenker. Yes, sir.
    Senator Pryor. I understand about the complexity, but on 
something like this where a train just hits another train in 
the station, do you think it will be 10 months or longer, or do 
you have some sense of that?
    Mr. Rosenker. Sir, I hate to prejudge the amount of time it 
will take. Clearly, we are, at the Board, as frustrated as 
apparently you and many, many people may be at the amount of 
time that it might take to investigate an accident. We are 
looking at ways to improve the efficiency of the actual 
reporting process, and I believe we will get there. But we do 
not wish to take any shortcuts. We cannot do that if we are 
going to maintain the methodology and the accuracy that we have 
when we, in fact, make a probable cause determination and the 
recommendations which are necessary to prevent that type of 
accident from happening again.
    But, sir, I agree with you. We need to do a better job of 
moving these reports and making these determinations, and we 
are working on that, sir, I guarantee you.
    Senator Pryor. Is that a manpower issue or is that just the 
system you have in place?
    Mr. Rosenker. Sir, it is a combination of perhaps both. We 
have 14 rail investigators to cover the United States. 
Depending upon how you would characterize incidents and 
accidents, there are something close to 3,000 a year. We look 
at around 15 to 20 of them depending upon what happens that 
year. Some of them we move much faster, as I indicated. The 
Graniteville accident clearly took top priority, given the 
catastrophic nature of that accident. This one here, sir, we 
will be looking at very closely, and I will do as much as I can 
to expedite the result on that.
    Senator Pryor. Well, like you said, I want you to be very 
thorough, but I just appreciate your keeping me informed as 
that continues.
    Mr. Rosenker. Yes, sir, I will.
    Senator Pryor. Mr. Chairman, thank you. That is all I have.
    Senator Inouye. I thank all of you, Mr. Rosenker, Ms. 
Higgins, Ms. Dale. I have been advised by the Chairman that we 
will do our utmost to expedite your approval. In fact, if 
everything goes well, we will have a markup on your nomination 
tomorrow, which is quite extraordinary. Otherwise, you can be 
assured that it will be done within a week so you will be hard 
at work within a week. I thank you all very much and the 
hearing is adjourned.
    [Whereupon, at 11 a.m., the Committee was adjourned.]

                            A P P E N D I X

   Prepared Statement of Hon. Bill Nelson, U.S. Senator from Florida
    Mr. Chairman and Mr. Co-Chairman, I am pleased to support the 
nomination of Ms. Shana Dale for NASA Deputy Administrator.
    Ms. Dale has distinguished herself with her unique combination of 
skills and experiences that I believe will benefit NASA. She has 
provided leadership on important issues in the Executive and 
Legislative branches of Government and Academia.
    I believe that Ms. Dale will complement the technical knowledge of 
Administrator Griffin, and Associate Administrator Rex Geveden's 
leadership in Science, Engineering and Operations, with her 
comprehensive knowledge of the agency from different perspectives 
gained while serving in the House Space and Aeronautics Subcommittee 
and for the Office of Science and Technology Policy. I offer my support 
for Ms. Dale's nomination to be NASA Deputy Administrator, and am 
hopeful that her confirmation will be swift so that she can get to work 
helping NASA.
                                 ______
                                 
  Prepared Statement of Hon. Ralph M. Hall, U.S. Representative from 
                                 Texas

    I would like to express my strong support of Shana Dale for the 
position of Deputy Administrator of NASA. I have personally known Ms. 
Dale for several years, and I worked closely with her when she was the 
staff director and I was the Ranking Member of the Science Committee's 
Space and Aeronautics Subcommittee. I have always drawn strength and 
direction from her advice, and I am certain her counsel will be equally 
valuable for NASA's Administrator, Michael Griffin.
    NASA is facing an era of great change and promise. As the agency 
implements the new Vision for Space Exploration with the goal of 
returning astronauts to the Moon and pushing on to Mars, it needs 
proven leadership to work with Administrator Griffin to meet these 
important ends. Shana Dale understands the direction of the agency, and 
has the know-how to get the job done.
    Ms. Dale has a breadth of experience in politics and policymaking 
that will help complete the top leadership at NASA. With experience in 
the legislative and executive branches as well as academia, she has an 
understanding of the complexities and challenges of how Congress and 
NASA interact. She expressed to me on more than one occasion that she 
understands the critical role Congress plays in determining the 
agency's priorities, and she emphasized the need for clear 
communications between NASA and its authorizing and appropriating 
committees.
    Ms. Dale also brings a great deal of managerial experience to NASA. 
As Deputy Director for Homeland and National Security for the Office of 
Science and Technology Policy in the Executive Office of the President, 
she helped build the agency through recruiting skilled staff, 
developing functional operating procedures, and creating viable working 
relationships. She is a very capable manager who completed agency goals 
and tasks while staying on budget.
    I have listed just some of the many reasons that I fully and highly 
recommend Shana Dale for the position of Deputy Administrator of NASA. 
I hope that the Senate finds that she is a qualified candidate and 
quickly confirms her nomination.

                                  <all>


</pre></body></html>
